United States v. Pebley, 846 Fed.Appx. 671 (2021)

ATTACHMENT 1 TO PETITION FOR CERTIORARI

2021 WL 628344

showing how third party stored the recordings;
administrative assistant in county sheriff's office
testified that each inmate had identification
number which he had to enter in order to make
phone call, that recordings of those phone calls
were stored by third party, and that she accessed
recordings by entering inmate's identification
number, and FBI agent who testified was
able to identify defendant's voice based on
conversation they had during three-hour drive
while transporting defendant. Fed. R. Evid. 901.

846 Fed.Appx. 671
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 10th Cir. Rule 32.1.
United States Court of Appeals, Tenth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Zachary Gage PEBLEY, a/k/a Zackary
Gage Pebley, Defendant - Appellant.
No. 20-7022
|
FILED February 18, 2021
Synopsis
Background: Defendant was convicted in the United States
District Court for the Eastern District of Oklahoma, Ronald
A. White, Chief Judge, of bank robbery and using, carrying,
and brandishing a firearm during and in relation to a crime of
violence. Defendant appealed.

[Holding:] The Court of Appeals, Kelly, Circuit Judge,
held that government provided sufficient foundation to
authenticate and support admission of three recorded excerpts
of telephone calls made by defendant while detained at county
jail.

Attorneys and Law Firms
Gregory Dean Burris, Linda A. Epperley, Office of the United
States Attorney, Eastern District of Oklahoma, Muskogee,
OK, for Plaintiff-Appellee
Barry L. Derryberry, Office of the Federal Public Defender,
Northern and Eastern Districts of Oklahoma, Tulsa, OK,
Robert Scott Williams, Barbara L. Woltz, Office of the
Federal Public Defender, Northern and Eastern Districts of
Oklahoma, Muskogee, OK, for Defendant-Appellant
Before MATHESON, KELLY, and EID, Circuit Judges. *

ORDER AND JUDGMENT **
Paul J. Kelly, Jr., Circuit Judge

Affirmed.

**1

Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection.
West Headnotes (1)
[1]

(D.C. No. 6:19-CR-00083-RAW-1) (E.D. Oklahoma)

Criminal Law

Telecommunications

Government provided sufficient foundation to
authenticate and support admission of three
recorded excerpts of telephone calls made by
defendant while detained at county jail, and
thus the recordings were admissible in trial for
bank robbery, although there was no evidence

*672 Defendant-Appellant Zachary Pebley appeals

from his conviction for bank robbery,
and

18 U.S.C. §§ 2113(a)

(d), and using, carrying, and brandishing a firearm

during and in relation to a crime of violence,
18 U.S.C.
§ 924(c)(1)(A)(ii). He was sentenced to 63 months on the
bank robbery conviction and 84 months, consecutively, on the
firearm conviction, as well as supervised release terms. At the
center of trial was the identity of the bank robber. On appeal,
Mr. Pebley argues that the district court erred in admitting
three recorded excerpts of telephone calls made by him while
an inmate at the Carter County jail in Oklahoma. We have
jurisdiction under 28 U.S.C. § 1291, and we affirm.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Pebley, 846 Fed.Appx. 671 (2021)
2021 WL 628344

ATTACHMENT 1 TO PETITION FOR CERTIORARI

Background
On October 15, 2019, a man entered a Bank of the West,
pointed a gun at the bank teller, and yelled “[g]ive me the
money.” 2 R. 61–62. The man handed the teller a white
pillowcase and she filled it with more than $3,000 in cash. A
witness described the robber as a white male wearing a blue
shirt and blue jeans. His face was covered with a bandana, he
wore glasses and a hat, and he carried what appeared to be a
nickel-plated .380-caliber pistol. After getting the money, the
robber exited the bank.
Outside the bank, Taber Knight witnessed a man carrying a
bag running across a parking lot. Mr. Knight saw him run to
a creek, fall in, and get out with wet pants. Mr. Knight began
following the man across the creek because he suspected the
man had taken a woman's purse. When Mr. Knight caught up
to him, the man threw the bag at Mr. Knight spilling money
on the ground. Mr. Knight proceeded to hit him several times
because Mr. Knight believed he was reaching for a knife.
After knocking the man out, Mr. Knight collected the money,
returned to the parking lot, and handed the bag over to the
police. Later, Mr. Knight identified this man as Mr. Pebley.
Police officers began searching the area with a K-9 unit and
eventually discovered Mr. Pebley hiding under an RV. Mr.
Pebley was wearing jeans that were wet and muddy, and
officers recovered a hat, ten-dollar bill, .380-caliber pistol,
and blue shirt. Moreover, officers discovered an abandoned
truck left with the motor running in a nearby parking lot. The
truck had a pillow in the front seat without a pillowcase, and
officers found a credit card and driver's license with Robert
Nichols’ name on them.
*673 During trial, the government presented testimony from
Traci Goodwin, who had been with Mr. Nichols and Mr.
Pebley before the robbery. She testified that the men had been
at her house doing work and that Mr. Nichols had brought a
silver and black gun. Ms. Goodwin also loaned Mr. Pebley a
shirt, which matched the one recovered by the police. After
they were done working, they all left in Mr. Nichols’ truck
and dropped Mr. Nichols off at his mother's home. Mr. Pebley
then drove Ms. Goodwin and her roommate to the store in
Mr. Nichols’ truck and agreed to pick them up after they were
done shopping. Mr. Pebley did not return.
Following his arrest, Mr. Pebley was booked into Carter
County jail. While he was detained at the jail, three calls were

placed using Mr. Pebley's identification number. In the first
call (Gov. Ex. 59), the speaker stated that he had not been
knocked out and had a bag full of money. In the second call
(Gov. Ex. 60), the speaker said he was alone and drove there
in a truck. In the third call (Gov. Ex. 61), the speaker said
the government had everything, including the gun and money.
FBI agent Steve West identified the speaker as Mr. Pebley.
**2 The government sought to admit these recordings at
trial and called two witnesses to lay a foundation: FBI agent
West and Melissa Darter, the Carter County Sherriff's Office
administrative assistant. Ms. Darter testified about the jail's
procedures regarding the recording of inmate's phone calls.
She stated that each inmate has an identification number
which he or she must enter in order to make a phone call.
Ms. Darter explained that inmate calls are recorded, and
the recordings are stored by a third party, City Tele Coin.
She accesses the recordings from City Tele Coin's systems
by entering the inmate identification number. Then she can
copy the recordings onto a disk, as she did in this case. She
ultimately testified that the recording system works properly
and accurately and that she did not make any alterations or
deletions to the disk she provided to agent West. She did note,
however, that she does not know how City Tele Coin stores the
information or how they gather and send her the recordings.
Agent West's testimony regarding the recordings focused on
identifying the speaker as Mr. Pebley. He was able to identify
Mr. Pebley's voice based on a conversation they had during a
three-hour drive while transporting Mr. Pebley.
When the government moved to admit the recordings, Mr.
Pebley objected, in part, because there was a lack of
authentication and problematic chain of custody. He argued
that there was no evidence showing that inmates were
restricted from using another inmate's identification number.
He further noted that there was no evidence showing how City
Tele Coin stored the records and whether that method was
reliable. The district court overruled the objection.

Discussion
Mr. Pebley argues that the district court erred in admitting
the phone recordings because there was inadequate
authentication and chain of custody. We review the district
court's admission of these recordings for abuse of discretion.
United States v. Thomas, 749 F.3d 1302, 1310 (10th Cir.
2014).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Pebley, 846 Fed.Appx. 671 (2021)
2021 WL 628344

ATTACHMENT 1 TO PETITION FOR CERTIORARI

Federal Rule of Evidence 901 provides that a party seeking to
admit an item of evidence “must produce evidence sufficient
to support a finding that the item is what the proponent claims
it is.” In the context of phone recordings, we have “adopted a
flexible approach” when determining whether the proponent

upheld the admission of a recorded conversation between a
detective and the defendant because the detective was able

of the evidence has laid sufficient foundation.
*674
United States v. Green, 175 F.3d 822, 829–30 (10th Cir.
1999). We consider various nondispositive factors including
whether the device is capable of recording the conversation,
whether the speakers are identified, and whether the recording

rise to the level of minimal familiarity.”
Id. at 919.
Although establishing foundation was more straightforward

has been altered, to name a few.

Id. at 830 n.3 (citing

United States v. McKeever, 169 F. Supp. 426 (S.D.N.Y.
1958), for the list of factors). Chain of custody is a related
process that helps establish authentication when evidence “is
not readily identifiable and is susceptible to tampering or
contamination.”
Thomas, 749 F.3d at 1310. We do not
require a perfect chain of custody in order for evidence to
be admissible, and deficiencies in the chain generally “bear
on the weight of the evidence rather than its admissibility.”
Id. Ultimately, we will not reverse the district court's ruling
“unless the foundation was clearly insufficient” to ensure
the recording's accuracy.
omitted).

Green, 175 F.3d at 830 (citation

At the outset, Mr. Pebley does not appear to suggest that
the recorded phone conversations were involuntary or that
the system was incapable of recording the conversation. See
id. at 830 n.3 (factors 1 and 7). Mr. Pebley was also
identified as the speaker based on agent West's familiarity
with his voice and because Mr. Pebley's inmate identification
number was associated with the call. See
id. (factor
6). Finally, Ms. Darter testified that she did not alter the
recordings in any way nor did she even listen to the
recordings. See
id. (factor 4). Indeed, Mr. Pebley does not
really contend that the recordings have been altered, and we
do not require the government “to eliminate absolutely the
possibility of alteration.”
459, 463 (10th Cir. 1982).

United States v. Wood, 695 F.2d

405 F.3d at 918–
to identify the defendant's voice.
19. We stated that voice identification is appropriate under
Rule 901 and that “[s]uch voice identification need only

Bush given the detective's personal involvement in
in
the call, it still supports agent West's ability to identify Mr.
Pebley in this case. In Smith, this court reviewed extensive
foundation evidence from multiple sources and concluded
that the district court did not abuse its discretion.
692 F.2d
at 698. In so doing, the court did not set a floor suggesting
that less evidence of foundation is necessarily insufficient.
**3 Mr. Pebley also relies on out-of-circuit cases where
the proponents provided testimony from third-party vendors
explaining their recording and storage processes. See, e.g.,
United States v. Johnson, 943 F.3d 214, 220–21 (5th Cir.
2019). He relies principally on the Fifth Circuit's approach
that requires showing “the competency of the operator, the
fidelity of the recording equipment, the absence of material
deletions, additions, or alterations ..., and the identification
of the relevant speakers.”
United States v. Biggins, 551
F.2d 64, 66 (5th Cir. 1977). A strict application of those
factors could be read as requiring testimony from a Tele City
Coin witness in this case. However, not only does the Fifth
Circuit flexibly apply these factors, see Johnson, 943 F.3d at
220, but we have also “specifically rejected the adoption of
‘inflexible foundation criteria ....’ ” United States v. Jones,
730 F.2d 593, 597 (10th Cir. 1984) (brackets and citation
omitted). While it certainly would have been helpful to have
a City Tele Coin witness testify, this chain-of-custody gap
goes to the evidence's weight, not its admissibility.
*675
Thomas, 749 F.3d at 1310. Ms. Darter's description of the
jail's recording process and agent West's voice identification
were enough to ensure the recordings’ reliability.
AFFIRMED.

Mr. Pebley relies on two cases:

United States v. Bush,

All Citations

405 F.3d 909 (10th Cir. 2005), and

United States v. Smith,

846 Fed.Appx. 671, 2021 WL 628344

692 F.2d 693 (10th Cir. 1982). In

Bush, this court

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Pebley, 846 Fed.Appx. 671 (2021)
2021 WL 628344

ATTACHMENT 1 TO PETITION FOR CERTIORARI

Footnotes
*

**

After examining the briefs and appellate record, this panel has determined unanimously that oral argument
would not materially assist in the determination of this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R.
34.1(G). The case is therefore ordered submitted without oral argument.
This order and judgment is not binding precedent, except under the doctrines of law of the case, res judicata,
and collateral estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P.
32.1 and 10th Cir. R. 32.1.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

